No. 20-361
IN THE

~upreme ~ourt of tbe mlniteh ~tateg
JAMES COURTNEY AND CLIFFORD COURTNEY,

Petitioners,
V.

DAVIDDANNER,INHIS OFFICIAL CAPACITY
As CHAIRMAN AND COMMISSIONER OF
THE WASHINGTON UTILITIES AND
TRANSPORTATION COMMISSION, ETAL.,

Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I hereby certify that the Brief
Amici CuriaeofProfessorsMichaelA. Schoeppner,MelvinPatrickEly, and W. Jeffrey
Bolster in Support of Petitioner in, in Courtney v. Danner, No. 20-361, complies with
the word limitations, as it contains 4,773 words.
I declare under penalty of perjury that the foregoing·

Date: November 2, 2020

